■v

1

v

■H.l

■}/■

In TheX~0
Supreme Court of the United States

George C. Chatman
Petitioi

%

r

V.

Arrowhead Credit Union

Respondent

On Appeal for Writ of Certiorari to the Court of Appeal
For the Ninth Circuit
Dated October 29, 2020

FILED
JAN 0 6 2021
OFFICE OF Tjh
SUPREME C6

Petition for Writ of Certiorari

George C. Chatman
2350 Osbun street, Unit 15 *
San Bernardino, California 92404
Pro-Se

RECEIVED
FEB 1 1 2021
.SUPREEMEFCOURTLn(j:K

RECEIVED
JAN t 9 2021
OFFICE OF THE CLERK
SUPREME COURT U R

-US

Questions Presented

1

Whether we abide by the laws and the constitution of the United States in
protecting our secured property Social security?
2

Whether the requirement of due process of law before conversion of secured
property ( social security) applicable to this case?
3

Whether the ninth circuit Opinion as insubstaxitial applicable with regards to
federal law 42 USC 407(a) that the right of the Petitioner under that subchapter are
not subject to execution, levy, attachment, or garnishment,or other legal process?
4
Whether a judgment of the State Court and the jury violated the rule of law?
5
Whether the judgment is considered Oppression under article 1 section 9 U.S.
Constitution Knowingly disregarded the right of the Petitioner secured by our laws?
6

Whether the Respondent acting under color of regulation violated federal law 42
USC section 1983 to the deprivation of the Petitioner’s property?
I

7

Whether the Respondent is liable for violation of the 14th Amendment of the
U.S.Constitution because the Petitioner’s interest of property is threatened?
8
Whether a judgment of the State Court or the Opinion of the Ninth Circuit that
affected the right of the Petitioner as none existed or insubstantial considered to be
a void judgment?
Parties to the Proceeding
George C. Chatman(Petitioner) was the Plaintiff at the California State Superior
Court, and Arrowhead Credit Union(Respondent) was the Defendant.Petitioner was
the Plaintiff at Federal District Court and the Respondent was the Defendant. The
Federal District Court ruled that the appropriate forum for review is the United
States Supreme Court.
Related Cases
Petitioner was the Appellant at the 4th Appellate Division 2 and the Respondent
was the Appellee. Opinion was entered in favor of the Appellant March 9,2016. The
Petitioner was the Appellant, the Respondent was the Appellee. Opinion was
entered on August 12, 2019 in favor of the Appellee.

II

Table of Contents
Pages
Question Presented

I,II

Parties to the Proceeding

II

Related Cases

II

Table of Contents

III

Table of Contents

IV

Table of Authorities

■V

Table of Authorities

■VI

Factual Background

VII

Procedural Background
Petition for a Writ of Certiorari
Introduction

VIII
1
-2

Statement of the Case

3

Federal Constitutional Statutory Right Violations

5

Argument-

8

Reasons for Granting a Writ of Certiorari

10

Conclusion

11

Appendix A. Declaration of Ann Wadagnolo page 3 line 1

12

Appendix B. Testimony of a witness Leslie Yorston from FTB

12

Certificate of Word Compliance

13

Proof of Service

III

Table of Contents
Opinion Ninth Circuit Court of Appeal.
Order Granting the Defendant Motion to Dismiss from Federal District Court.
Letter from California Supreme Court with the Appellant Motion to file out of time.
Motion to Reopen the judgment filed on August 12, 2019 4th Appellate Division 2.
Judgment in Favor of Arrowhead Credit Union Federal Judge Jesus G. Bernal.
Notice of Judgment on Jury Verdict
Opinion August 12, 2019 4th Appellate District Court Division 2.
Reporter’s Transcript March 8, 2018 during the trial
Reporter’s Transcript March 12, 2018 during the trial
Declaration uf Aim Wadagnolu
Opinion March 9, 2016 4th Appellate District Court Division 2.
Reporter’s Transcript October 17, 2017.
Reporter’s Transcript December 21, 2017
Reporter’s Transcript October 17, 2016
Letter to Offer Compromise from Respondent

IV

Table of Authorities
Pages:
Statutes
14th Amendment U.S. Constitution

3

Article VI U.S. Constitution

4

Article 1 section 9 U.S. Constitution

5

42 USC 407(a)

2

42 USC 1983

6

30A AM JUR judgments 44, 45

10
Case Law

Hoke v. Anderson 15 ne 15 25 AM DEC677

3

Marjory 5 U.S. 137 1883

4

Grannish v. Ordean M4 234 U.S. 385,34 S.CT. 719 58 L Ed 1363

4

Board of Regents v. Roth 408 U.S. 564,569,571

4

Goldberg v. Kelly 397 U.S. 254 (1970)

4

Perry v. Sindermann 408 U.S. 593 1972

4

Bennet v. Arkansas 485 U.S. 395,398

5

Philpott v. Essex County Welfare Bd. 409 U.S. 413,415,417

5

Washington Dept, of Social Health Service v. Guardianship Estate of Keffler
537 U.S. 371, 379e

5

Ableman v. Booth 62 U.S. HOW 21 506

5
V

Table of Authorities
Pages
Fuentes v. Shevin 407 U.S. 67, 81 (1972 )

6

Marshall v. Jericho Inc. 446 U.S. 238, 242 ( 1980)

6

Maine v. Thiboutot 448 U.S. 1 (1980)

6

Edelman v. Jordan 415 U.S. 651

6

Lugar v. Edmondson Oil Co. Inc. 457 U.S. 922

6

Adickes v. Kress CO. 398 U.S. 144, 152

7

Rendell-Baker v. Kohn 457 U.S. 830 (1982)

7

Burton v. Wilmington Parking Authority 365 U.S. 715 (1961)

7

ICing v. Smith 392 U.S. 309 (1968)

8

Gibson v. Berryhill 411 U.S. 574-75

8

Felder v. Casey 487 U.S. 131 (1988)

8

Mcneese v. Board of Education 373 U.S. 668 S.CT. 480

8

Patsy v. Board of Regents 102 S.CT. 2557

8

U.S. v. Lee 106 U.S.at 220, 1 S.CT. at 261 (1882 )

9

Miranda v. Arizona 384 U.S. 436, 86 S.CT. 1602 16 L Ed 694 1966

9

Underwood v. Brown 244 S.W. 2d 168 1951

10

Earl v. McVeigh 91 U.S. 503 23 L Ed 398

10

Fritts v. Krugh S.CT. of Michigan 92 N.W. 2d 604,354 Mich 97 (19/13/58)

10

Olmstead v. United States 277 U.S. 438 1928

11
VI

Petition for a Writ of Certiorari

George C. Chatman petitioned for a Writ of Certiorari to Honorable Supreme Court
Justices of the United States for the Ninth Circuit Court of Appeal filed on October
29, 2020.
Opinions Below

The Ninth Circuit Opinion is not published, and the Opinions of the 4th Appellate
District Court Division 2 entered on March 9, 2016 and August 12, 2019 is also not
published.
Jurisdiction

The Honorable Supreme Court of the United States has jurisdiction to hear this
case under 28 USC 1257 and 28 USC 1254.

Constitutional and Statutory Provisions Involved

The Constitution and Federal Law provisions were cited, wilfully and intentionally
violated in this case Yes Constitutional and Statutory Provisions were Involved.

1

Factual Background
On June 9,2014 the Petitioner walked in to the Arrowhead Credit Union (ACU)
Branch to withdraw his remaining social security fund from his savings account, he
was approached by two ACU employees and handed to him two pieces of documents,
the unsigned Order to Withhold Personal Income Tax from the Franchise Tax Board
(FTB) and the unsigned Notice of Levy from ACU. The Petitioner was denied access
to withdraw his social security fund because ACU turned it over to the FTB without
my knowledge, without my consent, without my permission, I argued this illegal
action to ACU( Respondent) at the same time and advise them not to do it that it is
a violation of federal law and must release my social security fund but the
Respondent denied to release my social security fund and said “we have the Order”
the Petitioner demanded to be serve due process of law and to present a legal Court
Order sign by a judge, and the Respondent replied that the Petitioner do not need
due process of law and do not need a Court Order, the unsigned Order to withhold
Personal Income Tax is good enough. The Petitioner pleaded again to the
Respondent to “release his social security fund because the Respondent is in
violation of federal law, and if you don’t release my social security fund I will take a
legal action against you,” the Respondent replied and said “we are sorry Mr.
Chatman we have to follow the order” this is an intentional act being the custodian
of the Petitioner’s property knowing it is a social security fund. The Petitioner left
the Branch and returned on June 10, 2014 to release his social security from his
VII

savings account, ( APP.A Page 12 ) but the Respondent denied the Petitioner’s
pleading. The Respondent entered the room and closed the door, when she came out
she told the Petitioner the same thing that “We are sorry Mr. Chatman we have to
follow the Order. The Petitioner left the Branch on the morning June 10, 2014
devastated, stressed, sent a letter and affidavit to the Respondent before filing a
suit but with no avail. What the Petitioner can only do is litigation of the case.
Procedural Background
On September 5, 2014 the Petitioner filed a lawsuit against Arrowhead Credit
Union (ACU ) the Respondent for civil right violations and damages at the Superior
Court of the State of California County and City of San Bernardino. On October 9,
2014 ( CR Court Record ) the Respondent filed a demurrer and the complaint was
amended. On January 26, 2015 the Respondent filed a demurrer to the Amended
complaint and on February 2, 2015 the Petitioner filed his Opposition to demurrer.
On March 10, 2015 the State Court sustained the demurrer without leave to amend
and the judgment was against the Petitioner (CR ). On April 2, 2015 the Petitioner
filed his appeal to 4th Appellate District Court Division 2 and the Judges reversed
the judgment in favor of the Petitioner and the Opinion stated that the trial court
ruling violated the Supremacy Clause, 42 USC 407(a) is an overriding provision of
federal law, and that the Respondent was a State Actor, and are deemed to obey
federal law that to be of the State. (Opinion March 9, 2016). A Remittitur was sent
to the Petitioner,and we went back to the Court for a trial. On August 2, 2016 the
VIII

Petitioner filed his second amended complaint but the judge Ordered to amend the
complaint to include the Franchise Tax Board ( FTB ) as Ordered, as the Petitioner
did, but only to exonerate the FTB for reason of immunity and leave the Respondent
the only one liable for their action, ( Reporter’s Transcript ( RT ) October 17, 2017
page 4 line 7

) During the trial the Respondent filed a motion to directed verdict

and was denied for a reason that the Respondent has no credible evidence to
support of their claim, and there was evidence to support that some of Mr.
Chatman’s money had been taken that did include his social security and thus,
there is a basis to support a conversion cause of action. (Reporter’s Transcript On
Appeal March 12, 2018 page 460 line 22). Leslie Yorston from FTB testified, it was
a social security fund FTB received.(APP.B Page. 12)

overwhelming evidence and

facts presented by the Petitioner, the jury which composed of eleven women and one
man, in spite of the counsel by the judge to the jury that they should follow the law
whether they agree or not, they render a verdict that the Petitioner has no right to
possess his social security fund from his savings account, and the trial court ruling
agrees with it. And that the Respondent was not a State actor. (CR Notice of Entry
of Judgment on Jury Verdict). This is an intentional violation of Federal
Constitutional Statutory Right of the Petitioner, a violation of the Rule of Law. On
May 2, 2018 the Petitioner filed his second appeal to the 4th appellate District
Court Division 2 and affirmed the judgment. (Opinion August 12, 2019). The
Petitioner believed that this is a “Void Judgment.” and the
IX

Opinion of August 12, 2019 was mailed on August 28, 2019 and received on August
29, 2019, whether this is intentional or not it took 17 days before the mailing and it
only took 1 day to receive it. Thus the Petitioner lost jurisdiction to CA. Supreme
Court for petition for review. After more than a year had passed, while litigation
was going on, the Franchise Tax Board (FTB) sent to the Petitioner $ 384.
Admitting it was a social security fund Which is not the right amount and the
petitioner sent it back to the FTB for insufficient, the amount of the social security
fund was $ 390. Arrowhead Credit Union (ACU) turned over to the FTB depriving
the Petitioner his right to possess his property and the Petitioner turned to Federal
District Court. On November 12, 2019 the Petitioner filed a lawsuit to Federal
District Court against the Respondent for violation of Federal Constitutional
Statutory Right of the Respondent and by affirming a judgment by the State Court
that contradict and in conflict with federal law, the 7th Amendment of the U.S.
Constitution Reexamination clause, and the 1789 act of Congress. The federal court
dismissed the case under the Rooker Feldman Doctrine and lack of Jurisdiction, and
ruled that the appropriate forum for review is the U.S.Supreme Court. The
Petitioner filed his Appeal to the Ninth Circuit and ruled insubstantial.

X

Introduction
The Petitioner believe that the Opinion of the Ninth Circuit is an error of judgment,
because under federal law 42 USC 407{a) Assignment of Benefits which states that
“ The right of a person to any future payments under this subchapter shall not be
transferable or assignable at law or in equity, and none of the monies paid or
payable or rights existing under this subchapter shall be subject to execution, levy,
attachment, garnishment, or other legal process, or to the operation of any
bankruptcy or insolvency law.” ( Reporter’s Transcript (RT) March 12, 2018 page
400 line 18.) The Petitioner claims this right and any violation of his right under
this subchapter, will also lead to a violation of federal statutes and the U.S.
Constitution. When the federal government deposited the social security fund Lo the
Petitioner’s bank account the legal beneficiary it became the Petitioner’s property,
this is a fact and not insubstantial any conversion to any unauthorized agency
without the Petitioner’s knowledge, without his consent or permission and without
due process of law, is a plain violation of federal constitutional statutory right. This
was the Respondent Arrowhead Credit Union (ACU) intentionally committed. A
conversion of property under social security act, making ACU liable for their action.
The refusal and denial of the Respondent to release the social security fund of the
Petitioner lead to the deprivation of property without a legal and signed document
from the court. Instead of obeying federal law, the Respondent claim they follow
Revenue & Taxation Code (RTC) 18670,18672, and 18674, but these regulations has
2

nothing to do with conversion of social security to be applied to State Personal
Income Tax. “ That statute which would deprived a citizen of the rights of person or
property without a regular trial according to the course and usage of common law,
would not be the law of the land.” Hoke v. Anderson 15 nc 15 25 AM DEC677. At
the trial, when cross examining the Respondent expert witness if there is anything
in that regulations that authorizes or requires ACU to levy or attach including
social security, and the Respondent expert witness replied, said No! ( RT March 8,
2018 page 300 line 2-15 ); also the expert witness testified that he was not able to
answer the question if the Respondent is required to abide by federal law 42 USC
407(a) but testified that the organizations he belongs to keep him up to date in
changes and development of the law. (RT March 8, 2018 page 302 line 2-5, page 281
line 1). The ramification of this unprecedented action is detrimental to the
livelihood to social security beneficiaries, it is an abuse of power overriding federal
law

by

a

banking

institution

in

this

case

Arrowhead

Credit

Union

(ACU)Respondent.
Statement of the Case
The Ninth Circuit Opinion of insubstantial seems that a violation of 42 USC 407(a)
and the deprivation of property secured by the constitution and laws of the United
States was a flimsy argument with no substance, but the law says “No State shall
make or enforce any law which shall abridge the privileges or immunities of citizens
of the United States, nor shall any State deprive any person of life, liberty, or
3

property without due process of law; nor deny to any person within its jurisdiction
the equal protection of the laws.” 14th Amendment U.S. Constitution. “No provision
of the constitution is designed to be without effect, anything that is in conflict is
null and void of law.” Marjory 5 U.S. 137 1883. The Petitioner’s social security fund
and his right to possess it was made clear by that federal statute and the
constitution, and without due process of law, “Any thing in the constitution or laws
of any State to the contrary notwithstanding.” Article VI U.S. Constitution. The
Petitioner was deprived of the due process of law before conversion of property
(social security ) that was protected by federal law and the constitution. “ The
fundamental requisite of due process is the right of the person to give notice and
opportunity to be heard.” Grannish v. Ordean M4 234 U.S. 385,34 S.CT.719 58 L Ed
1363. The Petitioner has property interest within the 14th Amendment of the U.S.
Constitution, has a legitimate claim of entitlement to the benefit, and has a
unilateral expectation that it will be available to him as long as the federal
government guarantees. Board of Regents v. Roth 408 U.S. 564,569,571. Goldberg v.
Kelly 397 U.S. 254 ( 1970 ). Perry v. Sindermann 408 U.S. 593 1972. The judgment
against the Petitioner was a violation of the rule of law, it threatens the Petitioner’s
social security future benefit, it sets up a precedent that social security benefits are
no longer protected by law, and so goes our federal right, due process are no longer
applicable and so goes the constitution. This should not happen if we in a Republic
are governed by the rule of law.
4

Federal Constitutional Statutory Right Violations
The judgment of the State Court and the Opinion of the Ninth Circuit are almost
identical, the judgment of the State Court echo to the Opinion of the Ninth Circuit
it is an error of judgment. Social Security is a federal matter, it is a federal issue
when it comes to conversion under social security act, the Supreme Court made it
clear that 42 USC 407(a) is anti-attachment act. Bennet v. Arkansas 485 U.S.
395,398. Philpott v. Essex County Welfare Bd. 409 U.S. 413, 415, 417. Washington
Dept, of Social Health Service v. Guardianship Estate of Keffler 537 U.S. 371,379e
‘When the decision of the State Court is in conflict with the decision by a Federal
Court, the decision of the State Court is not valid.” Ableman v. Booth 62 U.S. HOW
21 506. The Opinion of the Ninth Circuit that the Petitioner’s claim was
insubstantial contradict federal law and the decision of the Supreme Court on this
issue of social security and disregard knowingly the right of the Petitioner which is
identical to the State Court judgment that the Petitioner has no right to possess his
social security from his savings account. The Petitioner viewed this as Oppression,
it is a violation of Articlel section 9 of the U.S.Constitution to knowingly disregard
the Petitioner’s right.( RT December 21, 2017 page 17, line 19-26) The Respondent
intentionally violated the 14th Amendment of the U.S.Constitution, because the
14th amendment requires the provisions of due process when the interest of one’s
life, liberty, or property is threatened, and due process of law protects the Petitioner
5

From the mistaken deprivations of life, liberty, or property. Fuentes v. Shevin 407
U.S. 67, 81 ( 1972 ). Marshall v. Jericho Inc. 446 U.S.238, 242 ( 1980 ). Board of
Regents v. Roth 408 U.S. 564, 569-71 ( 1972 ). 42 USC 407(a) is an overriding
provision of Federal Law and the Respondent is deemed to obey the law that to be of
the State. A conversion of property under Social Security Act exposes the
Respondent to liability ( RT December 21, 2017 page 11 line 9-19 ), that also
subjected the Respondent for violation of Federal Law 42 USC 1983 for acting under
color of Regulations or Statutes to the deprivation of the Petitioner’s right. ( RT
December 21, 2017 page 12 line 12-17 ), and at the trial the Respondent presented
to the jury that the Petitioner has no right to possess his social security from his
savings account, this clear revelation showed the intent of the Respondent was to
Oppress the Petitioner, wilfully and intentionally violated Federal law. 42 USC
1983 provides remedy in a cause of action for the preservation of constitutional
rights, it also creates a cause of action for deprivation under color of law of any
federal statutory rights.( RT October 17, 2016 page 6 line 19-24 ).Maine v.
Thiboutot 448 U.S. 1 ( 1980 ); Edelman v. Jordan 415 U.S. 651; Lugar vs.
Edmondson Oil Co. Inc. 457 U.S. 922. 42 USC 1983 clearly established the right to
sue anyone who violates our constitutional rights the constitution guarantees.The
evidence is undisputed that the Respondent obey not the federal law but the State
and was a State actor, this was confirmed by the District Court 4th Appellate
division 2 in the Opinion on March 9, 2016, my first appeal. During the trial, the
6

Respondent brought another person and claimed to be their support, her name was
Laura Robbins an officer and agent of the Franchise Tax Board (FTB) and she
always joined with the Respondent and testified but not under oath.( Reporter’s
Transcript (RT) March 12, 2018 page 391 line 25; page 392 line 10,22; page 393 line
2, 16, 24 ). “A private person jointly engaged with State officials to prohibit action is
acting under color of law. To act under color of law, it is not required that the
accused be an officer of the State, it is enough that the accused is a willful
participant in joint activity with the State or its agents.” Adickes v. Kress CO. 398
U.S. 144, 152; Rendell-Baker v. Kohn 457 U.S. 830 ( 1982 ); Burton v. Wilmington
Parking Authority 365 U.S. 715 ( 1961 ). The Respondent is liable under 42 USC
section 1983 which states that: “ Every person who under color of statutes,
ordinance, regulations, custom or usage of any state or territory or the district of
Columbia, subjects or causes to be subjected any citizen of the United States or other
person within the jurisdiction thereof to the deprivation of any rights, privileges, or
immunities secured by the constitution and laws, shall be liable to the party injured
in an action of law, suit in equity or other proper proceeding for redress.” The U.S.
Supreme Court in the case of Maine v. Thiboutot 448 U.S. 1 stated: “ The right of
action created by the statute to deprivation under color of law of a right secured by
the constitution and laws of the United States, and comes claim which are based
solely on statutory violations of federal law and applied to the claim, that claimants
have been deprived of their rights in some capacity to which they were entitled.”
7

( 100 V. Supreme Court Reports 2502. 65 L Ed 2d 555 ( 1982 ). The Respondent
until this day 2021 has not returned to the Petitioner’s social security fund that the
Respondent turned over to the FTB without my knowledge, without my consent and
permission in the amount of $ 390.00 the only amount left available from the
account plus interest beginning the month of June 2014 up to the present. Since
this case is a constitutional and federal violations issue, it does not require to
exhaust State Administrative Remedy as claimed by the Respondent. King v. Smith
392 U.S. 309 (1968 ); Gibson v. Berryhill 411 U.S. 574-75; Felder v. Casey 487 U.S.
131 ( 1988 ); Mcneese v. Board of Education 373 U.S 668 S.CT 480; Patsy v. Board
of Regents 102 S.CT. 2557. (RT October 17, 2017,page 5 line 20). The moment the
Conversion of social security execuled by the Respondent to an agency that has no
authority to receive it, and their refusal to release it to the rightful and legal
property owner violated the Petitioner’s federal constitutional statutory right. And
the Petitioner’s claim is not insubstantial but facts supported with evidence,& law.
Argument
1). The 7th Amendment of the U.S. Constitution Reexamination Clause:
“ No fact tried by a jury shall be otherwise re-examined in any court of the United
States than according to the rules of the common law.”Artiele VII. The
re-examination clause is applicable to this case because there is error in the
judgment it violated the rule of law. Our justice system which is based on common
law does not give anyone to be above the law. When the judgment of the State
8

Court is against the right claimed under the constitution or laws of the United
States, a writ of error will lie to bring the judgment of the State Court before this
court for reexamination and revisions.” Ableman v. Booth 62 U.S. 21 HOW 506
(1858 ),1789 ACT of Congress sec. 25. Judgment cannot be rendered if it violates the
constitution or laws of the United States either to convict or to exonerate a person.
Under this clause, if there were no facts presented, if the evidence is insufficient,
and if the judgment is in conflict with the law, there is error on the judgment such
as in this case, it will be reexamined and revisions. No jury in collaboration with the
State Court is above the law; U.S. v. Lee 106 U.S. at 220, 1 S.CT. at 261(1882). to
render a verdict that the Petitioner has no right to possess his social security while
the Petitioner has every legal right according to the law to possess his property, is
to set themselves above the law, even the State Court ruled that there is evidence to
support the Petitioner’s claim.( RT March 12, 2018 page 460 line 21-26; page 461
line 1). I do agree with the decision of the lower Federal Court that the appropriate
forum for review of this case is the United States Supreme Court.
2). Void Judgment: Although the lower Federal Court cannot review the decision
of the State Court under the Rooker Feldman Doctrine, the Ninth circuit and the
State Ctruffc cannot abrogate the right of "the Petitioner secured by the constitution
and laws of the United States. Miranda v. Arizona 384 U.S.436, 86, S.CT. 1602 16 L
Ed 694 1966. The Opinion of the Ninth Circuit, the jury verdict in collaboration
with the State Court judgment, strikes the very heart of the right of the Petitioner
9

As none existed. This is contrary and in conflict with the law, this is a “Void
Judgment.” A void judgment is not entitled to the respect accorded a valid
adjudication, but may be entirely disregarded, or declared inoperative by any
tribunal in which effect is sought to be given to it. It is attended by none of the
consequences of a valid adjudication. It has no legal binding force or efficacy for any
purpose or at any place, it is not entitled to enforcement. All proceedings founded on
the void judgment are themselves regarded as invalid. 30A AM JUR judgments 44,
45.” Evidence clearly showed that the Opinions and the judgment has affected the
right and interest of the Petitioner. Underwood v. Brown 244 S.W. 2d 168 1951;
Earl v. McVeigh 91 U.S. 503 23 L Ed 398; Fritts v. Krugh Supreme Court of
Michigan 92 N.W. 2d 604, 354 Mich 97( 19/13/58).
Reasons for granting a Writ of Certiorari
A conversion of property without due process of law under the Social Security Act
violates federal constitutional law. A judgment may not be rendered in violation of
constitutional protections. Earl v. McVeigh 91 U.S. 503 23 L Ed 398. We are
instructed by law that no man or woman so high and mighty is above the law and
that we are all creatures of the law and we are bound to honor it. U.S. v. Lee 106
U.S. at 220 1 S.CT. at 261( 1882). The Opinion and the judgment is an error of law
and violation of the rule of law and abuse of authority by abolition of his right. The
Petitioner has the right federally and constitutionally to possess his social security,
has a legitimate claim of entitlement to the benefit. Certiorari must be granted.
10

In Conclusion
In our Republic we the citizens are not governed by the will of men, but by the rule
of law. It is a guarantee clause of Article IV section 4 of the constitution, and no
judgment should be rendered in violation of the rule of law to convict or exonerate
or to abolish and deny a person’s right without defending himself in the court of law
or, before conversion of his or her property takes place secured by laws of the
United States without incurring consequences of criminal act. Olmstead v. United
States 277 U.S. 438 1928. On February 5, 2018 the Petitioner received a letter, offer
to compromise from the Respondent in the amount of $20,000 this is admission of
their guilt, the Petitioner rejected the offer for the following reasons; Almost 4 years
the Petitioner suffered and was denied of his right tossed to and fro to fight for his
right why waited for all this years to make an offer after the Petitioner won on the
first Appeal? And the Petitioner demand to pay for the interest incurred beginning
Day 1 up to the present and to pay for the punitive damages for deprivation and for
intentional violation to disregard his right secured by the constitution and laws of
The United States. I humbly ask this Hon. Court to reverse the judgment and grant
The Petitioner the relief that he asked for it.
Respecj

jy Submitted By:
--------------------■"

j/v +

:orge C. Chatman
Pro-Se
Dated: January 4, 2021

11

Appendices:

Appendix A: Declaration of Ann Wadagnolo Page 3 Line 1
Ann Wadagnolo was a Senior Vice President and Chief Risk Officer for Arrowhead
Credit Union and worked for Arrowhead for 26 years and have been designated as a
custodian of records for the Credit Union for over fifteen years, and declared that
records do indicate that Mr. Chatman visited the Del Rosa Branch on June 10,
2014.
Appendix B. Testimony of Leslie Yorston under oath during the trial:
Reporter’s Transcript On Appeal March 12, 2018 Page 400 Line 1.
Leslie Yorston was a classification and principal compliance representative and a
specialist with the collection advisory team of the Franchise Tax Board, testified
that after reviewing the Petitioner’s bank statement, she was instructed to return
the funds as they were social security.

12

Certificate of Word Count
I, George C. Chatman certifies and declares as follows: I am the Petitioner of
Certiorari and the word count was prepared on Microsoft Office Word Processing
Program using 12 point Century School. I have determined the word count of this
petition is 5194 including the Appendix and without footnotes which is less than the
rule of Court requires.

Pe^6r

eclarant

eorge C. Chatman
Pro-Se

Dated: January 4, 2021.

13

